GR-80-98-040
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the Fort Worth, Texas Police Department
 
GR-80-98-040
September 25, 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an
audit of the grants awarded by the U.S. Department of Justice (DOJ), Office of Community
Oriented Policing Services (COPS), to the Fort Worth, Texas, Police Department. The Police
Department received a Phase I grant for $1.5 million to hire 20 officers to enhance
community policing. They also received a Making Officer Redeployment Effective (MORE) '95
grant for $248,406 to purchase equipment and to hire 12 civilian personnel to redeploy
11.3 and 6.9 full-time equivalents (FTEs) into community policing.

We found the following weaknesses with regard to meeting grant conditions:



The Fort Worth Police Department did not have a plan to track the redeployment of
      officers nor the time expended by officers performing community policing duties under the
      MORE '95 grant. Thus, we are questioning $199,271.




The Fort Worth Police Department received $49,135 in excess of the allowable Federal
      share of the MORE '95 grant.




Overtime and equipment costs totaling $152,090 were improperly included in total program
      costs which resulted in the Financial Status Report of the Phase I grant "total
      outlays" amount to be inaccurate.




The Fort Worth Police Department did not submit the Officer Progress Reports or an
      Annual Department Report for the Phase I grant.


#####